A

@OCKLE

2311 Douglas Street L + E-Mail Address:
Omaha, Nebraska 68102-1214 € 8g a l B c ie f 3 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-333

ARLENE’S FLOWERS, INC., d/b/a ARLENE’S
FLOWERS AND GIFTS, and BARRONELLE STUTZMAN,
Petitioners,

v.
STATE OF WASHINGTON,
Respondent.
ARLENE’S FLOWERS, INC., d/b/a ARLENE’S
FLOWERS AND GIFTS, and BARRONELLE STUTZMAN,
Petitioners,

 

v.
ROBERT INGERSOLL and CURT FREED,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 15th day of October, 2019, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF FOR THE STATES OF ARKANSAS, TEXAS,
ALABAMA, ALASKA, ARIZONA, IDAHO, KANSAS, LOUISIANA, MONTANA, NEBRASKA, OHIO, OKLAHOMA,
SOUTH CAROLINA, SOUTH DAKOTA, TENNESSEE, WEST VIRGINIA, AND THE COMMONWEALTH OF
KENTUCKY, BY AND THROUGH GOVERNOR MATTHEW G. BEVIN, AS AMICI CURIAE IN SUPPORT OF
PETITIONERS in the above entitled case. All parties required to be served have been served by Priority Mail. Packages
were plainly addressed to the following:

SEE ATTACHED
To be filed for:
KEN PAXTON LESLIE RUTLEDGE OFFICE OF THE ARKANSAS
Texas Attorney General Arkansas Attorney General ATTORNEY GENERAL

JEFFREY C. MATEER
First Assistant

Attorney General
KYLE D. HAWKINS
Texas Solicitor General
NATALIE D. THOMPSON
Assistant Solicitor General

NICHOLAS J. BRONNI
Arkansas Solicitor General
Counsel of Record
VINCENT M. WAGNER
Deputy Solicitor General
MICHAEL A. CANTRELL
Assistant Solicitor General

323 Center Street, Suite 200
Little Rock, Arkansas 72201
nicholas.bronni@arkansasag.gov
(501) 682-6302

Subscribed and sworn to before me this 15th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

cree 6 Ollie Quduow-h, Ghle

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38718
Attorneys for Petitioners

Kristen Kellie Waggoner

Alliance Defending Freedom

15100 N. 90th St.

Scottsdale, AZ 85260

480.444.0020

kwaggoner@adflegal.org

Party name: Arlene's Flowers, Inc., et al.

Attorneys for Respondents

Noah Guzzo Purcell

Office of the Attorney General
1125 Washington Street, SE
P.O. Box 40100

Olympia, WA 98504-0100
360.753.2536
noahp@atg.wa.gov

Party name: Washington

Michael Jacob Ewart

Hillis Clark Martin & Peterson P.S.

999 Third Avenue, Suite 4600

Seattle, WA 98104

206.623.1745

jake.ewart@hemp.com

Party name: Robert Ingersoll and Curt Freed
